C@QCKLE

2311 Douglas Street ‘
Omaha, Nebenn 610212 Legal Briefs
1-800-225-6964
(402) 342-2831

Fax: (402) 342-4850 No. 19-608

MARK ELSTER AND SARAH PYNCHON,

Petitioners,

v.
THE CITY OF SEATTLE,
Respondent.

AFFIDAVIT OF SERVICE

E-Mail Address:

contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 9th day of January, 2020, send out
from Omaha, NE 2 package(s) containing 3 copies of the BRIEF OF AMICUS CURIAE CENTER FOR
CONSTITUTIONAL JURISPRUDENCE IN SUPPORT OF PETITIONERS in the above entitled case. All parties required
to be served have been served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
JOHN C. EASTMAN
ANTHONY T. CASO
Counsel of Record
Claremont Institute’s Center for
Constitutional Jurisprudence
c/o Dale E. Fowler School of Law
Chapman University
One University Drive
Orange, CA 92866
(877) 855-3330
caso@chapman.edu

Counsel for Amicus Curiae

Subscribed and sworn to before me this 9th day of January, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

raises CE Cll Qudia-h, hale

My Commission Expires Nov 24, 2020

 

Notary Public

39198
 

Attorneys for Petitioners

Ethan Winfred Blevins Pacific Legal Foundation
Counsel of Record 930 G Street
Sacramento, CA 95814

EBlevins@pacificlegal.org

Party name: Mark Elster, et al.

916-419-7111

 

Attorneys for Respondent

Roger D. Wynne Seattle City Attorney's Office
Counsel of Record 701 5th Avenue
Suite 2050
Seattle, WA 98104-7097

roger.wynne@seattle.gov

Party name: City of Seattle, Washington

206-233-2177

 
